HHS/OIG, Audit - "Review of Pharmacy Claims Billed as Family Planning
Under the New York State Medicaid Program," (A-02-05-01018)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pharmacy Claims Billed as Family Planning
Under the New York State Medicaid Program," (A-02-05-01018)
July 26, 2007
Complete
Text of Report is available in PDF format (610 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to
determine whether the prescription drug claims for which New York State received
Federal reimbursement at the enhanced 90-percent rate of Federal financial
participation (FFP) qualified as family planning services.
New York State improperly
received Federal reimbursement at the
enhanced 90-percent rate of FFP for 592,165 prescription drug claims that did
not qualify as family planning services.  As a result, the State improperly
received $6,132,366 in Federal Medicaid funds.  This amount represents the
difference between the enhanced 90-percent rate and the applicable 50-percent or
52.95-percent Federal medical assistance percentage.
We recommended that the
State (1) refund $6,132,366 to the Federal
Government; (2) review all National Drug Codes (NDC) presently coded as family
planning in the Medicaid Management Information System (MMIS) to verify that
they are related to family planning; (3) periodically review all NDCs to ensure
that they are appropriately coded in the MMIS; and (4) determine the amount of
Federal Medicaid funds improperly reimbursed at the 90-percent rate for
non-family-planning NDCs, both prior and subsequent to our audit period, and
refund that amount to the Federal Government.  New York State generally
concurred with our recommendations.